 

2311 Douglas Street
Omaha, Nebraska 68102-1214

C@OCKLE

Legal Briefs
Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No. 19-1225

PAUL HUNT,
Petitioner,
v.
BOARD OF REGENTS OF THE
UNIVERSITY OF NEW MEXICO, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the MOTION FOR LEAVE TO
FILE BRIEF AND BRIEF OF AMICUS CURIAE SOUTHEASTERN LEGAL FOUNDATION IN
SUPPORT OF PETITIONER in the above entitled case complies with the typeface requirement of

Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and
10 point for the footnotes, and this brief contains 3020 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this | Ith day of May, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Slate of Heb /
eo rasha Konee. / 97, > Qua A hb
My Comm. Exp. September 8, 2023 0.
ic

Notary Publi Affiant

39802
